W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-7555
PATRICIA MILLER, et al.

ANTHONY A. PATEL
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the untimely and unmeritorious petition for a
writ of certiorari unless one is requested by the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.

X

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Nemecek & Cole; Blank Rome; and Buter Buzard Fishbein & Royce
Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

X

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

April 5, 2021

Date:

(Type or print) Name

Mark Schaeffer
X

Mr.

Ms.

Mrs.

Firm

Nemecek & Cole

Address

16255 Ventura Blvd., Suite 300

City & State

Encino, California

Phone

818.788.9500

Miss

Zip
Email

91436

mschaeffer@nemecek-cole.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:
2730870 / 192.372

Anthony A. Patel (tony@tonypatel.com); 11693 San Vincente Blvd., #461, Los
Angeles, CA 90049

